              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections




Inspection Report

National Nuclear Security Administration’s
Ability to Meet the Aircraft Requirements
of the Joint Technical Operations Team



DOE/IG-0605                                 June 2003
                                  Department of Energy
                                      Washington, DC 20585
                                         June 5 , 2003




MEMORANDUM FOR

FROM:
                         Inspector General

SUBJECT:                 INFORMATION: Inspection Report on “National Nuclear Security
                         Administration’s Ability to Meet the Aircraft Requirements of the Joint
                         Technical Operations Team”

BACKGROUND

Worldwide events have heightened concerns over terrorist attacks, particularly with regard to the
possible use of weapons of mass destruction, including radioactive devices, in such attacks. A recent
training exercise in Seattle, Washington, involving a simulated terrorist attack using a radioactive
“dirty bomb” highlighted the importance of cooperation and coordination by Federal, State, and
local governments in providing a rapid, planned response to a terrorist incident involving a weapon
of mass destruction.

A 1995 Presidential Decision Directive requires the United States to develop the ability to respond
rapidly and decisively to acts of terrorism. The Department of Energy (Energy) developed the Joint
Technical Operations Team (JTOT) to provide a rapidly deployable technical response primarily to
terrorist incidents involving nuclear weapons. JTOT consists of two phases: JTOT- 1, during which
Energy scientists provide technical advice to Department of Defense (Defense) personnel to render-
safe a weapon of mass destruction; and JTOT-2, during which a joint Energy/Defense team prepares
a weapon of mass destruction for safe transport for final disposition. Within Energy, JTOT activities
are managed and executed by the National Nuclear Security Administration (NNSA), which plans to
use its assigned aircraft to support deployments of JTOT personnel and equipment.

The specific objective of our inspection was to determine if NNSA could meet the aircraft
requirements of Energy’s JTOT- 1 and JTOT-2 missions.

RESULTS OF INSPECTION

We concluded that NNSA was not prepared to meet its aircraft requirements for JTOT-1 and
JTOT-2 missions. We found that:

   0   NNSA aircraft were not always available to support potential JTOT-1 and JTOT-2 missions;

   0   There had been no formal contingency planning for those occasions when NNSA aircraft
       were not available for JTOT missions;



                                   @    Printed with soy ink on recycled paper
      0    Energy and Defense officials expressed significantly differing views regarding Energy’s
           intent or obligation to provide aircraft support to Defense for JTOT-2 missions; and,

      0    If Energy was responsible for providing aircraft support to Defense for JTOT-2 missions,
           NNSA’s aircraft may not be capable of satisfactorily supporting these missions.

Based on these findings, we are concerned that JTOT personnel may not be able to respond as
rapidly and effectively as necessary to address a potential terrorist incident. Specifically, given the
national importance of the JTOT mission and the necessity of timely arrival of JTOT personnel and
equipment at an incident site, uncertainties relating to airlift capability are unacceptable. Therefore,
we recommended that NNSA develop a formal agreement with Defense detailing the specific JTOT
aircraft responsibilities assigned to each Department; that NNSA establish definitive aircraft
requirements for JTOT based on the formal agreement; and, most importantly, that NNSA identify
and make available the resources to meet the definitive aircraft requirements.

For national security reasons, we have excluded specific JTOT operational capabilities and details
from this report.

MANAGEMENT REACTION

In response to our draft report, NNSA indicated that it would initiate corrective actions. We were
informed that NNSA officials met with representatives from the Office of the Secretary of Defense
and both parties agreed that a Memorandum of Understanding is appropriate to describe specific
JTOT aircraft support and responsibilities. NNSA management said that a formal agreement is
anticipated by September 30,2003. While the formal agreement is being developed, both parties
agreed that NNSA is responsible for transporting Energy’s JTOT- 1 personnel and equipment and that
Defense will transport Energy’s JTOT-2 personnel and equipment with the Defense component of the
JTOT-2 team on military aircraft. Management said that, given its current agreement with Defense,
the existing NNSA fleet of aircraft would meet the aircraft requirements for JTOT.

Attachment

cc:       Deputy Secretary
          Administrator, National Nuclear Security Administration
          Under Secretary for Energy, Science and Environment
          Director, Office of Aircraft Management
          Director, Policy and Internal Controls Management (NA-66)
NATIONAL NUCLEAR SECURITY ADMINISTRATION’S
ABILITY TO MEET THE AIRCRAFT REQUIREMENTS OF THE
JOINT TECHNICAL OPERATIONS TEAM

TABLE OF
CONTENTS

               OVERVIEW

               Introduction and Objective       1

               Observations and Conclusions     2


               DETAILS OF FINDINGS

               Aircraft Availability            3

               Contingency Planning             3

               Aircraft Capability for JTOT-1   3

               Differing Views - - JTOT-2       5

               Aircraft Capability for JTOT-2   6


               OBSERVATIONS                     7


               RECOMMENDATIONS                  7


               MANAGEMENT COMMENTS              8


               INSPECTOR COMMENTS               8


               APPENDIX

               Scope and Methodology            9
Overview

INTRODUCTION    A 1995 Presidential Decision Directive (PDD) requires the United
AND OBJECTIVE   States to develop the ability to respond rapidly and decisively to
                acts of terrorism. Recent worldwide events have heightened
                terrorist concerns, particularly with regard to the possible use of
                nuclear weapons of mass destruction. The Office of Inspector
                General conducted an inspection of selected aspects of the
                Department of Energy’s (Energy’s) execution of its responsibilities
                with regard to the 1995 PDD and other directives.

                A rapidly deployable interagency Emergency Support Team was
                established to respond to foreign and domestic terrorist incidents.
                Energy’s role on the team is to provide technical expertise. Energy
                developed a Joint Technical Operations Team (JTOT) that would
                provide rapidly deployable, tailored technical response to,
                primarily, terrorist incidents involving nuclear weapons. Energy’s
                primary function on JTOT is to provide expert technical advice for
                operations to render safe and prevent the detonation of a nuclear
                weapon and, once that has been accomplished, to make it safe for
                transport. JTOT includes specially trained Department of Defense
                (Defense) Explosive Ordnance Disposal (EOD) personnel and
                scientists and engineers from Energy’s nuclear weapons complex.

                The JTOT mission consists of two phases: JTOT-1, which entails
                an Energy team joining with a Defense EOD team at an incident
                site and providing technical advice during life threatening,
                emergency operations involving a weapon of mass destruction; and
                JTOT-2, which entails a Defense-Energy team conducting
                deliberate, advanced technical EOD procedures to prepare a
                weapon of mass destruction for safe transport and turnover for
                final disposition.

                Within Energy, JTOT activities are managed and executed by the
                National Nuclear Security Administration (NNSA). NNSA
                planned to use its assigned aircraft to transport Energy’s JTOT-1
                and JTOT-2 teams throughout the United States in the event of a
                domestic weapon of mass destruction incident or to a domestic
                embarkation point if the incident is in a foreign country. NNSA’s
                available aircraft were a Gulfstream III, which is a high speed/long
                range aircraft, two DC-9s, and a Lear Jet. We were told that, due
                to its limited capabilities, the Lear Jet is not a primary JTOT
                mission aircraft. The planes are maintained and managed by




Page 1                  National Nuclear Security Administration’s Ability to
                        Meet the Aircraft Requirements of the Joint Technical
                        Operations Team
                                      an NNSA field activity.1 The specific objective of our inspection
                                      was to determine if NNSA could meet the aircraft requirements of
                                      Energy’s JTOT-1 and JTOT-2 missions.

OBSERVATIONS AND                      We concluded that NNSA was not prepared to meet its aircraft
CONCLUSIONS                           requirements for JTOT-1 and JTOT-2 missions. Specifically, we
                                      found that:

                                      •    An NNSA aircraft was not available at all times to support
                                           potential JTOT-1 and JTOT-2 missions.

                                      •    There had been no formal contingency planning for those
                                           occasions when an NNSA aircraft was not available for JTOT
                                           missions.

                                      •    NNSA has not dedicated its high speed/long range aircraft to
                                           support JTOT-1 missions, and its DC-9s may not be capable of
                                           satisfactorily transporting JTOT-1 assets (personnel, supplies,
                                           and equipment) to all possible incident sites.

                                      •    Energy and Defense officials held differing views on Energy’s
                                           intent or obligation to provide aircraft support to Defense for
                                           JTOT-2 missions.

                                      •    If Energy is responsible for providing aircraft support to
                                           Defense for JTOT-2 missions, the DC-9s may not be capable
                                           of satisfactorily supporting these missions.

                                      We have also included in our report two observations that,
                                      although outside the specific objective of our inspection, we
                                      believe should be addressed by NNSA.




1
    Energy’s Office of Aviation Management and NNSA told us that they are planning to acquire a DC-9-30 aircraft
    later this year, which they believe will provide greater airlift capability and flexibility to meet Energy’s mission
    requirements, including emergency response. This aircraft has longer range and carries heavier payloads than the
    current DC-9s. We subsequently learned that the aircraft might not be available for Energy missions until late
    spring 2004 at the earliest.




Page 2                                                                        Observations and Conclusions
Details of Findings

AIRCRAFT              We found that an NNSA aircraft was not available at all times to
AVAILABILITY          support potential JTOT-1 and JTOT-2 missions. Specifically,
                      during the period October 2000 to October 2002 there were at least
                      29 days when the Gulfstream III and both of the DC-9s were not
                      available to support a JTOT-1 or JTOT-2 mission, should there
                      have been such a need. The aircraft were unavailable due to
                      scheduled maintenance or equipment problems, or because they
                      were being utilized for other official purposes.

                      We were told that, in the event of an actual emergency, there
                      would likely be additional pressure on the NNSA fleet to support
                      other non-JTOT emergency response missions, as well as
                      emergency operations of Energy’s Office of Transportation
                      Safeguards. However, we determined that there was no written
                      guidance addressing aviation support requirements for JTOT
                      missions. Such guidance would ensure the availability of aircraft
                      for JTOT and establish operational priorities.

CONTINGENCY           We also found that NNSA officials had not developed formal
PLANNING              contingency plans to address those occasions when NNSA aircraft
                      were not available for JTOT-1 and JTOT-2 missions. When asked
                      how support would be provided in the event of an actual JTOT
                      mission, if an NNSA aircraft was not readily available, NNSA
                      officials cited several possible civilian and military sources for
                      aircraft support. However, we determined that formal plans had
                      not been developed to ensure these sources would be available to
                      provide the required aircraft support in a timely manner.

                      An NNSA Office of Emergency Operations official advised us that
                      he had developed operational guidance on requesting a military
                      aircraft in the event no NNSA aircraft were available. However,
                      NNSA operational officials in the field were not aware of such
                      guidance. Several field officials told us that, even if a military
                      aircraft and crew were available, it was highly unlikely that it
                      would arrive in time to meet JTOT mission timelines.

AIRCRAFT              We found that the NNSA had not dedicated its high speed/long
CAPABILITY FOR        range aircraft to support the JTOT-1 mission. In January 1998,
JTOT-1                Energy officials recommended the purchase of a Gulfstream III
                      based on their conclusion that a mid-size, high-speed, long-range
                      aircraft was necessary to meet emergency response requirements.
                      Available purchase justification documentation makes clear that
                      the aircraft’s primary mission was for emergency response
                      purposes, and that it was to be available for dispatch 24 hours per
                      day, 365 days per year, on an exclusive use basis to the home base



Page 3                                                              Details of Findings
         field site. We determined that the actual use of the Gulfstream III
         was inconsistent with the spirit of the initial justification. For
         example, NNSA’s contract with its aviation contractor for aircraft
         maintenance and operations did not require that the Gulfstream III
         be maintained in a 24 hours per day, 365 days per year standby
         status; the Gulfstream III was used by other entities besides the
         home base field site; and, the primary mission of the Gulfstream III
         had not been emergency response. Frequently, the aircraft was so
         far from its home base on trips unrelated to emergency response
         that it could not have been recalled to support a JTOT-1 mission on
         a timely basis, even in the event of an emergency. We were
         advised that the Lear Jet should not be discounted as a backup
         aircraft to the Gulfstream III, but we determined that it fell short of
         the Gulfstream III in capabilities. This, in our judgment, made use
         of the Lear Jet for JTOT purposes highly problematic.

         In fact, the primary backup aircraft for the Gulfstream III are
         NNSA’s two DC-9s. We found, however, that the DC-9s are not
         capable of satisfactorily transporting JTOT-1 assets (personnel,
         supplies, and equipment) to all possible incident sites. Our review
         disclosed that the DC-9s do not have the range of the Gulfstream
         III and, depending on the location of a potential incident, might
         have to land for refueling purposes. In fact, depending upon the
         mission, destination and flying conditions, two refueling stops
         might be necessary. Obviously, this could significantly delay the
         arrival of Energy’s JTOT-1 assets to deal with a potential weapon
         of mass destruction incident, where time may be of the essence.
         These circumstances appeared to us to be incompatible with stated
         JTOT mission requirements.

         An NNSA Office of Emergency Operations official advised us that
         a management decision was made to allow the Gulfstream III to be
         used by other Energy program offices and used for missions other
         than emergency response, and that he “would live with” having to
         rely on a DC-9 or even the Lear Jet to transport JTOT-1 assets.
         This official expressed the view that this was a prudent
         management decision and that Energy could not justify the
         Gulfstream III sitting idle or only being used for short-range trips
         in anticipation of a possible emergency response mission. While
         we recognize the complexity of the issues involved in this matter,
         we believe that a judgment of this importance should be made at
         the highest levels of the Department based on a careful
         consideration of JTOT requirements, existing aircraft capabilities,
         and current threat assessments.




Page 4                                                   Details of Findings
DIFFERING   We noted that Energy and Defense held differing views on
VIEWS - -   Energy’s intent or obligation to provide aircraft support to
JTOT-2      Defense for JTOT-2 missions. Specifically, Energy and Defense
            disagreed over which Department will transport Defense’s
            personnel and equipment for JTOT-2 missions.

            PDDs relating to emergency response to terrorism events state that
            Defense will provide airlift support for emergency response
            operations. A May 2002 Federal document entitled “Domestic
            Guidelines” states in the “Department of Energy Technical Crisis
            Management Capabilities” section that the Energy and Defense
            components of JTOT-2 will deploy on Defense aircraft.
            Notwithstanding this information, NNSA officials planned to
            transport Energy and Defense assets on NNSA aircraft in the event
            of a JTOT-2 deployment. NNSA officials advised us that they did
            not believe they could rely on Defense to provide an aircraft to
            transport the JTOT-2 assets in the event of an actual weapon of
            mass destruction incident. They told us that Defense aircraft had
            not always arrived in a timely manner to support JTOT-2 training
            exercises, and on one occasion the Defense aircraft that was
            provided broke down on the runway. We also learned that Defense
            personnel have trained with Energy personnel and have deployed
            on NNSA aircraft during JTOT-2 exercises and specific missions.
            NNSA Office of Emergency Operations officials advised us that
            Energy assumed the responsibility to transport Energy and Defense
            JTOT-2 assets on NNSA aircraft following a telephone call from
            the Defense Joint Chiefs of Staff; however, such a discussion was
            not documented.

            Defense officials advised us that in the event of an actual JTOT-2
            mission, Defense operations plans require that a Defense aircraft
            be dispatched to transport the Defense EOD component of
            JTOT-2. We were also advised that, although it was not in writing,
            Defense had agreed to transport Energy JTOT-2 assets on the
            Defense aircraft if requested by Energy.

            We were unable to find a written agreement between Energy and
            Defense assigning responsibility for aircraft support for JTOT-2
            missions. We also noted that there were no guidelines describing
            specific requirements for aircraft support, such as commitment,
            availability, capabilities, and performance requirements for the
            deployments.




Page 5                                                  Details of Findings
AIRCRAFT                              We also found that if Energy is responsible for providing aircraft
CAPABILITY FOR                        support to Defense for JTOT-2 missions, the DC-9s may not be capable
JTOT-2                                of satisfactorily supporting these missions.

                                      A Defense official advised us that in a worst-case scenario, it is
                                      extremely critical that the JTOT-2 team arrives at the site as soon
                                      as possible and with the right equipment. Another Defense official
                                      advised us that the on-scene Defense commander would want the
                                      entire complement of JTOT-2 equipment transported to the
                                      incident site at the same time as the JTOT-2 personnel, so the full
                                      range of options would be available to render the weapon of mass
                                      destruction safe for transport after it was initially rendered safe.

                                      The primary aircraft designated by NNSA officials to support the
                                      JTOT-2 mission are the DC-9s. We were told that each DC-9 is
                                      capable of carrying less than one third by weight of the total
                                      supplies and equipment. Therefore, the equivalent of three DC-9s
                                      would be needed to deploy all the JTOT-2 assets, including
                                      containment equipment. We also determined that during October
                                      2000 to October 2002, there were at least 292 days when only one
                                      of the two DC-9s was available. Field officials advised that, since
                                      one DC-9 cannot transport all the JTOT-2 supplies and equipment,
                                      they have been forced to tailor the loads, and have identified what
                                      they believe is mission-critical equipment to be loaded on the
                                      aircraft. We noted that this approach is contrary to Defense’s
                                      belief that the entire complement of JTOT-2 equipment should be
                                      available.

                                      We also determined that the DC-9s are not capable of reaching
                                      many sites within the continental United States without landing to
                                      refuel. When departing from its home base under “high and hot”
                                      airfield conditions, there are occasions when, due to the weight of
                                      the JTOT-2 assets, the DC-9 can only carry a limited amount of
                                      fuel.2 Consequently, the DC-9 may have to land twice to refuel
                                      when en-route to East Coast destinations and at least once if
                                      traveling to West Coast destinations. We were told that each
                                      refueling stop could add more than an hour to the time of arrival at
                                      an incident site. Although the fuel limitations of the NNSA DC-9s
                                      would not prevent the JTOT-2 assets from reaching an incident

2
    The phrase “high and hot” refers to the altitude and temperature at the takeoff location. Factors considered for takeoff
    include weight of the aircraft, length of the runway, altitude, and temperature. The aircraft weight, which includes
    passengers, cargo and fuel, is adjusted to compensate for altitude and temperature.




Page 6                                                                                       Details of Findings
                  site, the increase in transport time from possible refueling stops
                  does not appear consistent with the 1995 PDD, which requires that
                  emergency response teams have the “ability to respond rapidly.”

OBSERVATIONS      During our inspection, we identified the following issues that,
                  although outside the specific objective of our inspection, warrant
                  further consideration by NNSA:

                  •   NNSA aircraft do not have the capability to allow JTOT
                      personnel in-flight communication of critical sensitive or
                      classified information.

                  •   No agreements exist with military or civilian airfields to
                      provide priority refueling or other support for NNSA JTOT
                      mission aircraft, which could result in further delays by DC-9s
                      under “high and hot” conditions in reaching the site of a
                      possible incident.

RECOMMENDATIONS   We recommend that the Administrator, NNSA:

                  1. Develop a formal, written agreement with Defense detailing
                     the specific JTOT aircraft support responsibilities assigned to
                     each Department and the specific parameters under which these
                     responsibilities will be performed.

                  2. Based on the formal, written agreement, establish definitive
                     NNSA JTOT aircraft requirements that are reflective of the
                     JTOT aircraft support responsibilities assigned to the NNSA.

                  3. Establish clear policy and procedures for the use of NNSA
                     aircraft when other missions conflict with JTOT emergency
                     response requirements.

                  In addition, we recommend that the Administrator, NNSA, in
                  coordination with the Director, Office of Aviation Management:

                  4. Take immediate steps to identify and make available the
                     resources necessary to support the definitive NNSA JTOT
                     aircraft requirements.

                  5. Establish contingency plans for JTOT aviation support when
                     NNSA aircraft are not available.




Page 7                                                              Observations/
                                                                Recommendations
MANAGEMENT   Management concurred with recommendations 1, 2, 3, and 5.
COMMENTS     Regarding recommendation 1, NNSA advised that on April 11,
             2003, NNSA officials met with representatives from the Office of
             the Secretary of Defense and agreed that a Memorandum of
             Understanding (MOU) is appropriate to describe specific JTOT
             aircraft support and responsibilities. A formal agreement is
             anticipated by September 30, 2003. Both parties agreed that
             NNSA is responsible for transporting Energy’s JTOT-1 personnel
             and equipment and that Defense will transport Energy’s JTOT-2
             personnel and equipment with the Defense component of the
             JTOT-2 team on military aircraft. The Office of Aviation
             Management advised regarding recommendation 5, that if support
             for JTOT-2 were “back in the [Defense] arena,” the
             recommendation would only be applicable to JTOT-1.

             Management non-concurred with recommendation 4. NNSA
             advised that no action is required, as the requirements outlined in
             recommendation 1 are satisfied with the current fleet of aircraft.
             The Office of Aviation Management advised that if
             recommendations 1, 2, and 3 are implemented properly, there
             would be no reason to make available the resources necessary to
             support definitive NNSA JTOT requirements.

INSPECTOR    Management has acknowledged the need to clarify the JTOT
COMMENTS     aircraft support responsibilities with Defense and will formalize
             aircraft support responsibilities in an MOU with Defense. If the
             MOU assigns Defense the responsibility to transport JTOT-2
             personnel and equipment, including Energy’s JTOT-2 personnel
             and equipment, the concerns regarding the capability of the DC-9s
             to transport JTOT personnel and equipment will be resolved.
             However, until the MOU with Defense is finalized and the
             responsibilities for aircraft support to JTOT clearly delineated,
             recommendation 4 remains in effect.




Page 8                                               Management Comments/
                                                     Inspector Comments
Appendix

SCOPE AND     We reviewed the PDDs that required the United States to develop
METHODOLOGY   the ability to respond rapidly and decisively to terrorism
              and that directed the establishment of a rapidly deployable
              interagency Emergency Support Team to respond to
              foreign and domestic incidents. These directives included:

              •   PDD 39.
              •   PDD 62.

              We also reviewed applicable JTOT program documentation.
              These documents included:

              •   Tab C, “Department of Energy Technical Crisis
                  Management Capabilities,” from the “Domestic
                  Guidelines.”
              •   Joint Chiefs of Staff Operations Plans 0300 and 0400
                  (Draft).
              •   The JTOT Mission Analysis.

              We also interviewed Energy, NNSA, and Defense
              personnel responsible for managing and implementing the
              JTOT program. In addition, we reviewed documentation
              on the purchase and use of emergency operations aircraft,
              including:

              •   Aircraft manifests.
              •   The Gulfstream III Aircraft Purchase Justification.
              •   The aviation support contract.

              The fieldwork for this inspection was conducted between
              August 2002 and March 2003. This inspection was
              conducted in accordance with the “Quality Standards for
              Inspections” issued by the President’s Council on Integrity
              and Efficiency.




Page 9                                              Scope and Methodology
                                                                    IG Report No. DOE/IG-0605

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date __________________________

Telephone                                     Organization ____________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
